OFFICE OF INSPECTOR GENERAL 



FOLLOW-UP AUDIT OF
NEGATIVE UNLIQUIDATED
OBLIGATION BALANCES
IN USAID’S FINANCIAL
MANAGEMENT SYSTEM
AUDIT REPORT NO. A-000-14-003-P
May 28, 2014




WASHINGTON, D.C.
 Office	of	Inspector	General

 May 28, 2014

 MEMORANDUM

 TO:                  Chief Financial Officer, Reginald W. Mitchell

 FROM:                Director, IG/A/ITA, Mark S. Norman /s/

 SUBJECT:             Follow-up Audit of Negative Unliquidated Obligation Balances in USAID’s
                      Financial Management System (Report No. A-000-14-003-P)

 This memorandum transmits our final report on the subject audit. We have considered your
 comments on the draft report and included them, without attachments and clearances, in
 Appendix II.

 The final report contains two recommendations. Based on our evaluation of management
 comments, USAID has taken final action on Recommendation 1 and made a management
 decision on Recommendation 2. Please provide the Audit Performance and Compliance
 Division with the necessary documentation to achieve final action on Recommendation 2.

 I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://oig.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 2 


     Recommendations Were Fully Implemented .......................................................................... 2 


Other Matter................................................................................................................................. 3 


     PhoenixViewer Reported Negative Unliquidated Obligation Balances ................................... 3 


Evaluation of Management Comments..................................................................................... 5


Appendix I—Scope and Methodology ...................................................................................... 6 


Appendix II—Management Comments ..................................................................................... 7

SUMMARY OF RESULTS 

Between December 2000 and May 2006, USAID deployed Phoenix, a commercial off-the-shelf
financial management system, at its Washington headquarters and overseas missions. Phoenix
supports USAID’s financial management policies, requirements, and business processes. To
query data and create ad hoc financial reports from Phoenix, USAID uses PhoenixViewer, a
reporting application, which is available to all USAID employees.

In June 2011 the Office of Inspector General (OIG) found that a report generated by
PhoenixViewer was reporting $47.1 million in negative unliquidated obligation balances.1 A
negative unliquidated obligation balance occurs when an amount spent exceeds the amount
obligated to be spent, and it can represent a violation of the Anti-Deficiency Act, 31 U.S.C.
1341(a)(1)(A). This act prohibits officers of the U.S. Government from making expenditures or
obligations exceeding the amount available in an appropriation or fund for the expenditure or
obligation.2 Although OIG subsequently concluded that there had been no violation of the act, it
made two recommendations to USAID’s chief financial officer (CFO) to address the negative
unliquidated obligation balances reported in PhoenixViewer. In March and September 2012
USAID reported that it had completed final action on the two recommendations.

OIG/Information Technology Audits (ITA) Division conducted this follow-up audit to determine
whether USAID fully implemented the two recommendations to resolve the reporting of negative
unliquidated obligation balances in PhoenixViewer. We concluded that USAID had fully
implemented them (page 2).

During its fieldwork OIG also identified a matter of concern in a report on obligations in
PhoenixViewer; “1311 Analysis - Unliquidated Obligations” presented unliquidated obligations
with negative balances (page 3). OIG determined that this was caused largely by fluctuating
currency rates and using those rates to convert foreign currency trust fund transactions to U.S.
dollars. OIG also found that the data transferred from the Agency’s older financial systems to
Phoenix and subsequent accounting adjustments resulted in negative unliquidated obligation
balances. These events created the appearance of Anti-Deficiency Act violations.

To address these issues, OIG makes the following recommendations.

	 USAID’s CFO should modify the design of “1311 Analysis - Unliquidated Obligations” to
   present accurate trust fund obligation balances in U.S. dollars (page 3).

	 USAID’s CFO should identify the financial transactions that caused the negative
   unliquidated obligation balances in Phoenix and take the appropriate actions to correct them
   (page 4).

Details on the audit’s results follow. Appendix I contains a discussion of the audit’s scope and
methodology. Our evaluation of management comments is included on page 5 of the final
report, and the full text of those comments appears in Appendix II.

1
  “Survey of USAID Negative Unliquidated Obligation Balances in the Financial Management System” 

(No. 2-000-11-005-S), June 22, 2011.

2
  See, e.g., Comp. Gen. B-300192, November 13, 2002. 




                                                                                               1
AUDIT FINDINGS
Recommendations Were Fully
Implemented
Recommendation 1 from OIG’s June 2011 report asked the CFO to implement improvements in
the design of the PhoenixViewer “Current Status by Program Element” report to provide more
reliable, consistent financial information. OIG made the recommendation because the report
could not aggregate Phoenix financial transactions correctly; the report’s design caused it to
show $47.1 million in negative unliquidated obligation balances that did not exist in Phoenix.

In response to the recommendation, the CFO initially modified the design, but subsequently
determined that the report was no longer needed and removed it from PhoenixViewer. We then
concluded that the CFO had taken final action on Recommendation 1.

Recommendation 2 from the same report asked the CFO to identify financial transactions and
resolve any additional inconsistencies that were presenting negative unliquidated obligation
balances in the PhoenixViewer “Current Status by Program Element” report. In response to the
recommendation, an official from the office of the CFO said he had reviewed the modified report
and the underlying transactions in Phoenix, but did not find any instances in which
disbursements exceeded the amount obligated. However, as mentioned above, the CFO
subsequently determined the report was no longer needed and removed it from PhoenixViewer.
Consequently, we concluded that the CFO had taken final action on Recommendation 2.




                                                                                             2
OTHER MATTER
PhoenixViewer Reported Negative
Unliquidated Obligation Balances
As stated earlier, the Anti-Deficiency Act prohibits officers of the U.S. Government from making
expenditures or obligations that exceed the amount available in an appropriation or fund for the
expenditure or obligation. To facilitate the review of unliquidated obligations, PhoenixViewer’s
“1311 Analysis – Unliquidated Obligations” report identifies the amount of obligations that have
not been disbursed and remain unpaid. As of April 19, 2013, there were 3,333 obligations with
negative balances totaling $5.1 million, and 3,263 (or 98 percent) of them were related to trust
fund obligations with negative balances totaling $3.8 million. The remaining 70 obligations,
which had $1.3 million in negative balances, related to obligations transferred to Phoenix from
older financial systems and subsequent accounting adjustments.

Foreign Currency Conversions Cause PhoenixViewer to Report Negative Unliquidated
Obligation Balances. The trust fund obligations appeared in “1311 Analysis - Unliquidated
Obligations” because the report reflects trust funds’ obligations, disbursements, and
unliquidated amounts in U.S. dollars, whereas USAID employees record them in their respective
local foreign currencies.

Consequently, when the report is generated, PhoenixViewer needs to convert the foreign
currency amounts into U.S. dollars. To do this, PhoenixViewer uses the currency exchange rate
in effect the day the transactions were posted in Phoenix, and converts and then aggregates the
amounts to U.S. dollars. However, the application of various exchange rates during the currency
conversion process caused the trust fund obligations to reflect negative U.S. dollar balances
although they actually had positive or zero balances in their local currency equivalents.

The negative obligation balances, which appear in the report, are a red flag for users of the
report because the numerous negative balances appear to indicate that the Agency spent more
than was available and may have violated the Anti-Deficiency Act. Therefore, we make the
following recommendation.

   Recommendation 1. We recommend that the Chief Financial Officer modify the
   PhoenixViewer “1311 Analysis – Unliquidated Obligations” report to either include the
   trust funds’ obligation, disbursement, and unliquidated amounts in foreign currency or
   exclude them from the report and document the determination.

Transferring Data to Phoenix and Accounting Adjustments Cause PhoenixViewer to
Report Negative Unliquidated Obligation Balances. In 2001 USAID transferred obligation
data from its older financial systems to Phoenix. Officials from the CFO’s office said the Agency
wanted to preserve amounts and balances as they were recorded in the older system. In some
cases, this meant sending obligations with negative unliquidated balances to Phoenix.

In addition, USAID made accounting adjustments to the obligations and disbursements
transferred from the old system, which also caused obligations to reflect negative balances.
Such adjustments included cancelled credits, reorganizations that affected disbursement. To
illustrate an accounting adjustment, PhoenixViewer’s obligation liquidation record for obligation



                                                                                               3
document No. PCE-I-08-97-00042-00, accounting line 1, showed an $11,304 adjustment to a
disbursement posted on December 8, 2003. However, on March 9, 2007, a subsequent
adjustment was made to reverse the entry and caused the obligation to reflect a negative
balance of $11,304.

As of April 19, 2013, the data and accounting adjustments caused 70 obligations in
PhoenixViewer to report negative balances of $1.3 million. The negative balances give the
appearance that the Agency spent more than was available and may have violated the Anti-
Deficiency Act. Therefore, we make the following recommendation.

   Recommendation 2. We recommend that the Chief Financial Officer identify and
   document the financial transactions that caused the negative unliquidated obligation
   balances in Phoenix and take the appropriate actions to correct them.




                                                                                          4
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID agreed to take action on all recommendations.
USAID has taken final action on Recommendation 1. Further, OIG acknowledges USAID’s
management decision on Recommendation 2. A detailed evaluation of USAID’s response to
each recommendation follows.

Recommendation 1. USAID’s Chief Financial Officer revised the PhoenixViewer/Washington
version of the “1311 Analysis - Unliquidated Obligations” report to show the trust funds’
obligation, disbursement, and unliquidated amounts in local currency. Based on OIG’s review of
the revised report, USAID has taken final action on Recommendation 1.

Recommendation 2. USAID’s Chief Financial Officer agreed to identify and document the
financial transactions that caused the negative unliquidated obligation balances in Phoenix, and
to take the appropriate actions to correct them when supporting documentation is available. In
the case of canceled funds or balances for which no supporting documentation exists at this
time, the Chief Financial Officer will modify the “1311 Analysis – Unliquidated Obligations” report
to exclude them and document the determination as part of the report design documentation in
the Agency’s configuration management system. USAID plans to complete final action by
November 30, 2014. Therefore, OIG acknowledges that USAID made a management decision
on Recommendation 2.




                                                                                                 5
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
OIG conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions in accordance with our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

OIG/ITA performed this audit to determine whether USAID fully implemented corrective actions
to resolve the reporting of negative unliquidated obligations in PhoenixViewer. We examined
selected internal controls for closing audit findings by reviewing management’s final actions and
related supporting documentation. We conducted the audit at USAID’s Washington
headquarters between April 25 and December 20, 2013.

Methodology
To answer our audit objective, we obtained and reviewed “Survey of USAID Negative
Unliquidated Obligation Balances in the Financial Management System”; examined CFO and
Audit, Performance, and Compliance Division supporting documents to close the
recommendations in that report; and interviewed officials from the CFO’s office and the Office of
the Chief Information Officer. We also reviewed actions the CFO took to correct the negative
unliquidated obligations in PhoenixViewer. To do so, we reviewed supporting documents for the
modifications made to PhoenixViewer and examined a PhoenixViewer report to verify whether
PhoenixViewer was no longer reporting nonexistent negative unliquidated balances.

Because the CFO removed the “Current Status by Program Element” report, we selected
another PhoenixViewer report, “1311 Analysis - Unliquidated Obligations,” that was reporting a
large amount of negative unliquidated obligations. As of April 19, 2013, it had
131,189 obligations with a total unliquidated balance of $22 billion. Of those, 3,333 obligations
had a total negative unliquidated balance of $5.1 million. We selected a judgmental sample of
21 obligations representing $3.6 million in total negative unliquidated obligations. We based our
judgmental sample selection on the dollar value of each obligation.

We selected non-trust fund obligations with a negative unliquidated balance equal to or greater
than $5,000. For trust fund obligations, we selected those with negative unliquidated balances
equal to or greater than $100,000. We used the judgmental sampling method because we did
not need to project our results to the population. So the results of our testing should not be
projected to the population. We validated the obligation balances using the Phoenix general
ledger and transaction journal. We recalculated the foreign currency conversions made by
PhoenixViewer. We also discussed our results with the CFO’s staff and OIG’s financial auditors.

We reviewed the following: the Chief Financial Officers Act of 1990; the Federal Financial
Management Improvement Act of 1996; Office of Management and Budget Circular A-127,
“Financial Management Systems”; the Anti-Deficiency Act; and USAID Automated Directives
System Chapters 620, “Financial Management Principles and Standards”; 621, “Obligations”;
and 634, “Administrative Control of Funds.”



                                                                                               6
                                                                                    Appendix II



MANAGEMENT COMMENTS 


                                                                                 May 15, 2014

MEMORANDUM

TO:                  Mark S. Norman, Director (OIG/A/ITA)

FROM:                Reginald W. Mitchell, Chief Financial Officer (M/CFO) /s/

SUBJECT:             Draft Report on the Follow-Up Audit of Negative Unliquidated Obligation
                     Balances in USAID's Financial Management System (Report No. A-000-
                     14-00X-P)

Thank you for your draft report on the Follow-Up Audit of Negative Unliquidated
Obligation Balances in USAID's Financial Management System. My office is pleased to
respond to the USAID Office of the Inspector General’s (OIG) request for a response to
its recommendations. Our comments and management decisions regarding the
proposed audit recommendations follow:

The Office of the CFO takes pride in its stewardship and financial management of U.S.
taxpayer dollars. We appreciate the OIG recognized that the appearance of negative
unliquidated obligations in the USAID/Washington Agency-level version of the
“PhoenixViewer 1311 Analysis – Unliquidated Obligations” report was primarily the
result of fluctuation in foreign currency exchange rates and migration of financial data in
2001. The PhoenixViewer report that was reviewed is not the sole source of
determining the validity of obligations. It is used to facilitate the 1311 review of
unliquidated obligations, but the principal means of preventing the obligation of funds in
excess of allotments and limitations below the allotment level is the Agency’s funds
control system, which is documented in ADS Chapter 634, Administrative Control of
Funds. We do not disagree with the recommendations that the OIG made, but would
like to clarify some of the conditions that the OIG stated in the draft audit report as the
basis of the matter of concern for which two recommendations were made.

Local Currency Trust Funds. The vast majority of the lines (3,268 out of 3,339 or
98%) belong to local currency trust fund obligations. The obligations are issued in
currencies other than U.S. dollars. Phoenix (and the PhoenixViewer report) translates
these foreign currency amounts into U.S. dollars. Because of exchange rate
fluctuations, the U.S. dollar value of an obligation may end up being less than the U.S.
dollar value of the disbursement against that obligation. The U.S. dollar balance is

U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
                                                                                               7
                                                                                                Appendix II


irrelevant for local currency trust funds. These funds are not U.S. dollar appropriated
funds, but funds contributed by the host government in local currency to support the
development assistance that the U.S. government is providing, which USAID holds in
trust and administers as a matter of convenience on behalf of the host government.
The fund, obligation, and disbursements are all performed in local currencies, and the
balance in those currencies is what matters when assessing whether there are negative
unliquidated obligations.

Local currency trust funds are subject to Section 1311 of the Supplemental
Appropriation Act, 1955, i.e., federal requirements for the review and certification of
unliquidated obligations amounts as valid obligations, but contract commitments made
clearly and solely with trust funds are not subject to the "anti-deficiency act", 31 U.S.C.
1341. Instead, trust fund obligations and expenses are not to exceed the balance in the
trust fund.3 Mission Directors and Mission Controllers are responsible for managing
local currency trust funds. Mission-based staff use the PhoenixViewer instance specific
to their mission, which contains their local trust fund currency trust fund obligations,
disbursements, and balances in local currency because the report is designed to
present data in its fund currency, not its US dollar equivalent.

Data Migration from Legacy Systems. Twenty-seven out of the 3,339 lines on the
report display a negative unobligated balance due to the AWACS migration in 2001 and
the MACS migration between 2004 and 2006. Both data migrations sought to preserve
the balances as they existed in the legacy systems. This data migration strategy was
discussed with the OIG prior to executing the migration and the results of the data
migration were also discussed with the OIG and no concerns were raised. The financial
statements issued by the Agency with this migrated data in the current financial system,
Phoenix, have been audited since 2003 without data migration issues being raised. The
statutory documentation requirements do not allow us to research the underlying source
documents since 13 years have elapsed since the first data migration to Phoenix.
Additionally, 52 of the lines have expired funds and 5 of those lines have cancelled
funds.

Human Error. Forty-four of the 3,339 lines are the result of accounting adjustments
conducted after the original obligations and disbursements, i.e., credits or transfers that
were canceled or applied incorrectly; reorganizations that affected the disbursement
balance; DHHS payments posted to an incorrect obligation.

This background on the negative unliquidated obligations in the Washington version of
the report provides context for the Office of the CFO’s management decisions that
follow.

Recommendation 1: We recommend that the Chief Financial Officer modify the
PhoenixViewer “1311 Analysis – Unliquidated Obligations” report to either include the
trust funds’ obligation, disbursement, and unliquidated amounts in foreign currency or
                           3
                               BULLETIN NO. 5 LOCAL CURRENCY TRUST FUNDS ‐ 72FT800 (Host Country Owned Funds) 




                                                                                                            8
                                                                               Appendix II


exclude them from the report and document the determination.

Management Decision: The Chief Financial Officer has updated the
PhoenixViewer/Washington version of the report to show the trust funds’ obligation,
disbursement, and unliquidated amounts in local currency. Because PhoenixViewer is
a parameter driven reporting tool, the “1311 Analysis – Unliquidated Obligations” report
can be run to not display local currency trust funds by excluding trust funds in the Fund
Type, excluding Treasury Symbols that contain TF, or excluding BFY/Funds that start
with TF when specifying report query criteria. The report can also be saved to Excel
and these values could be filtered out. Similarly, the report can be run to exclude
cancelled and/or expired funds. Based on the action taken, we request closure of this
recommendation upon issuance of the final audit report. (Samples of the parameters
demonstrating that the Fund Currency Unliquidated Amount has been added as a
parameter and a sample report demonstrating the report output displays amounts in the
fund currency are attached to this memo as supporting documentation.)

Recommendation 2: We recommend that the Chief Financial Officer identify and
document the financial transactions that caused the negative unliquidated obligation
balances in Phoenix and take the appropriate actions to correct them.

Management Decision: The Chief Financial Officer will identify and document the
financial transactions that caused the negative unliquidated obligation balances in
Phoenix and take the appropriate actions to correct them when supporting
documentation is available. In the case of canceled funds or balances as a result of the
migration of legacy data for which no supporting documentation exists at this time, the
Chief Financial Officer will take appropriate actions to modify the “1311 Analysis –
Unliquidated Obligations” report to exclude them and document the determination as
part of the report design documentation in the Agency’s configuration management
system.

Target Date: November 30, 2014

In closing, I would like to confirm USAID’s commitment to continual improvement in
providing financial information that is useful for Agency managers’ decision-making.




                                                                                        9
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

             Washington, DC 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
